<html>
<title> - ASSESSING U.S. FOREIGN ASSISTANCE PRIORITIES IN SOUTH ASIA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
       ASSESSING U.S. FOREIGN ASSISTANCE PRIORITIES IN SOUTH ASIA

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 30, 2014

                               __________

                           Serial No. 113-139

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
87-714                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6007100f200315131408050c104e030f0d4e">[email&#160;protected]</a>  

                                 ______
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                      STEVE CHABOT, Ohio, Chairman
DANA ROHRABACHER, California         ENI F.H. FALEOMAVAEGA, American 
MATT SALMON, Arizona                     Samoa
MO BROOKS, Alabama                   AMI BERA, California
GEORGE HOLDING, North Carolina       TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            BRAD SHERMAN, California
DOUG COLLINS, Georgia                GERALD E. CONNOLLY, Virginia
LUKE MESSER, Indiana                 WILLIAM KEATING, Massachusetts


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Nisha Biswal, Assistant Secretary, Bureau of South 
  and Central Asian Affairs, U.S. Department of State............     6
Ms. Denise Rollins, Acting Assistant Secretary, Bureau for Asia, 
  U.S. Agency for International Development......................    17

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Nisha Biswal: Prepared statement...................     9
Ms. Denise Rollins: Prepared statement...........................    19

                                APPENDIX

Hearing notice...................................................    36
Hearing minutes..................................................    37
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    38
Written response from the Honorable Nisha Biswal to question 
  submitted for the record by the Honorable Steve Chabot, a 
  Representative in Congress from the State of Ohio, and 
  chairman, Subcommittee on Asia and the Pacific.................    41


       ASSESSING U.S. FOREIGN ASSISTANCE PRIORITIES IN SOUTH ASIA

                              ----------                              


                       WEDNESDAY, APRIL 30, 2014

                     House of Representatives,    

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:01 p.m., in 
room 2172, Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. Good afternoon. The Subcommittee on Asia and 
the Pacific welcomes everyone here this afternoon. I am Steve 
Chabot, chair of the subcommittee. I want to thank the 
gentleman from California, Mr. Ami Bera, for serving as today's 
ranking member and also thank the other distinguished people 
that are here this afternoon; especially our panel of experts 
here.
    Mr. Bera and I will each make opening statements of 
approximately 5 minutes and then other members, as they come in 
will have an opportunity for a minute to also make an opening 
statement. Then we will hear from the panel members, and then 
we will go to questions. I will begin with my statement now.
    Today's hearing was called with the intention of following 
up on Secretary Kerry's and Administrator Shah's testimonies at 
the full committee in March and early April, but with an 
exclusive focus on South Asia. This will give members the 
opportunity to ask more specific questions, both about the 
Fiscal Year 2015 proposed budget, as well as U.S. strategy 
throughout the region.
    South Asia continues to be the source of many of the most 
critical challenges to U.S. national security and will likely 
continue to be in the future. Straddling the Red Sea, Arabian 
Sea, Bay of Bengal, and the Java and South China Seas, South 
Asia bridges a world fraught with political uprisings and civil 
strife to one that will help to drive global politics and the 
world's economy. The region encompasses the world's largest 
democracy; the second most populous nation; one of the poorest 
countries in the world, and a booming youth population making 
up nearly 70 percent of the region's entire population.
    As the center of the Indian Ocean sphere that extends from 
the Middle East to India and south to Indonesia, South Asia is 
a subregion in need of strategic stability. The challenges 
there are multifaceted and incredibly complex. Nearly every 
country that we will discuss today--India, Bangladesh, Sri 
Lanka, Nepal, and the Maldives--is trying to lift its 
population out of extreme poverty, trying to foster greater 
economic development, and fighting to eradicate transnational 
terrorist threats. As a result, the Fiscal Year 2015 budget 
must focus on enhancing economic openness, improving political 
freedoms, and promoting democratic governance.
    I am troubled by the fact that 80 percent of the budget for 
South Asia is earmarked by solely three Presidential 
Initiatives; the Global Health Initiative, Feed the Future, and 
Global Climate Change programs. This leaves very little room 
for responding to the unexpected. We cannot ignore the broader 
national security threats this area of the world faces--
especially its growing susceptibility to extremist groups.
    While Afghanistan may not be within the jurisdiction of 
this particular subcommittee, the impact of the U.S. withdrawal 
from Afghanistan this year certainly remains one of the most 
immediate challenges facing the South Asia region. There are 
enduring fears that if the withdrawal is not handled well, the 
long-term victim will be regional stability. While one of the 
administration's priorities for assistance in the region is 
advancing economic integration with its New Silk Road programs, 
the U.S. also needs to find a way to navigate the ongoing 
economic and security transitions in Afghanistan with balancing 
Pakistan and Indian interests.
    The U.S. has been encouraging India to take a greater role 
in Afghanistan, and India has listened by cultivating strong 
ties there; but, Pakistan is fearful of those ties, creating a 
precarious balancing act. How elections in Afghanistan and 
India will impact this relationship and future stability in the 
region remains to be seen.
    South Asia is also in the midst of a potentially region-
wide political shift. By midsummer, nearly every country in 
South Asia will have completed nationwide elections over the 
past year--Bhutan, Maldives, Nepal, Pakistan, India, 
Bangladesh, and Sri Lanka. That is a tremendous opportunity for 
change--good and bad.
    As we saw in Bangladesh earlier this year, the rivalry 
between its major political parties left the country in 
complete turmoil. I happened to be there some months back and 
met with both of the leaders there. Rival factions held 
Bangladesh's democratic process hostage, initiated protests 
that killed hundreds of people, and wreaked havoc on the 
economy. This resulted in a sham election in which only 10 
percent of Bangladesh's 154 million voters participated. One 
must be concerned, I believe, about the long-term impact of 
this ongoing political quagmire.
    Bangladesh is a nation we have extolled as the region's 
moderate, tolerant, and democratic partner in our fight to end 
violent extremism. One can only wonder how the current state of 
political instability in the country will affect that role. I 
know Assistant Secretary Biswal has traveled to Bangladesh and 
has spent a great deal of time on the current state of affairs 
there, and I hope we can discuss the situation in some detail 
during this hearing.
    In Sri Lanka, we continue to be frustrated by reports of 
human rights violations, religious intolerance, heavy-handed 
military presence in the northern region, and failure to 
integrate the minority Tamil population into government and 
police agencies. Most recently, we have heard of the 
government's intention to scrutinize funding received by NGOs. 
I hope our witnesses this afternoon can focus on how U.S. 
assistance to Sri Lanka is benefiting the current situation and 
what, if any, plans the administration has to adjust our 
programs accordingly.
    Finally, let me address what I think we can all agree on: 
The incredible display of democracy that we are witnessing in 
India. Over a 5-week period, nearly 800 million people will go 
to the polls to elect their leaders. One can argue that India's 
diversity and growing pains are united by the bedrock of its 
Constitution which allows for a liberal democratic order--
surely a model for the region.
    In India, we do continue to have concerns about protection 
of the human rights of women and minorities, and preservation 
of religious liberties, particularly concerning rights of 
Christians and others, and I hope we can all also address those 
concerns today.
    While I haven't mentioned Nepal or the Maldives, which also 
face important challenges of their own, I hope that our 
witnesses today will also discuss U.S. priorities in those 
countries.
    I would now like to recognize the acting ranking member, 
Mr. Bera, for his opening statement. The gentleman is 
recognized for 5 minutes.
    Mr. Bera. Thank you, Chairman Chabot, for calling this 
important hearing about the administration's Fiscal Year 2015 
priorities for South Asia.
    Our policy in Asia, as you have already mentioned, is at a 
critical juncture, and we must reassure our allies and partners 
that we are committed to the region, particularly India. India 
remains a strategic partner and geopolitical partner for 
Washington. This month, as you have already mentioned, India 
launched its 6-week election campaign to democratically elect 
its next leaders.
    Now, this is a country of over 1.2 billion individuals and 
more than 800 million eligible voters. This is democracy in 
action. It obviously is a massive undertaking, but it only 
underscores the importance of India as an ally as the world's 
largest responsible and thriving democracy. And regardless of 
who wins the election, I think it is an opportune time for the 
United States to broaden our ties with India and reestablish a 
trajectory of growth that was remarkable in the last decade. We 
also have an opportunity with a new U.S. Ambassador to India 
who can also help pave the way toward resettling ties and 
strengthening our economic relationship.
    As I mentioned previously, in previous hearings, India is 
one of our top 20 trading partners. Trade between the United 
States and India now tops nearly $100 billion annually in goods 
and services. And as the Vice President has mentioned, there is 
no reason that we can't get that trajectory to quintuple over 
this next decade and take it from $100 billion to $500 billion, 
benefits both countries and benefits and strengthens our ties. 
And it is in our strategic interest, which go far beyond our 
own borders.
    India also, working with USAID and others, has now gone 
from a traditional aid recipient to becoming a true peer-to-
peer partner that is able to harness its own strengths and 
capabilities and partner with the United States. The 
administration and India are working on tackling various 
development challenges in other countries. For example, both 
India and the United States are working closely together to 
mitigate food insecurity in Africa. With USAID's assistance, 
India has enthusiastically jumped in to host and train around 
180 African agriculturists. The farmers are taught agricultural 
best practices that lead to sustainability and make their farms 
more productive.
    India also, as the chairman has mentioned, has played a 
critical role and will continue to play a critical role in 
economic and infrastructure development in Afghanistan. The 
trilateral relationship between the United States, India, and 
Afghanistan is incredibly important to help maintain the 
stability of the region, particularly in 2014, as the United 
States goes through its transition.
    In addition, India is incredibly important in the 
interconnectivity of the region and with its neighbor and 
partner countries. It can provide geopolitical stability by 
promoting trade, building infrastructure, and doing business 
with its partners.
    In addition, our people-to-people contact is also extremely 
important. More than 50 percent of India's population is under 
the age of 30, and approximately 150 million people are 
eligible to vote for the first time this year.
    Since India has one of the world's youngest populations, we 
should also focus on helping India build its system of higher 
education, both its universities, but also its trade and 
technical capacity. This is a dividend that not only benefits 
both India, but also the benefit to the United States would be 
priceless. One possibility arising from investing in Indian 
higher education would be to provide our students more 
opportunities to study in India as well, thereby strengthening 
both our cultural and economic ties, while also building 
India's workforce.
    As a proud Indian-American, I look forward to intensifying 
our alliance with India by fostering innovation, education, 
security, and economic engagement.
    I want to thank Assistant Secretary Biswal and Acting 
Administrator Rollins for joining us today, and I look forward 
to your testimony.
    And with that, I yield back, Chairman.
    Mr. Chabot. Thank you very much.
    If any members would like to make an opening statement for 
1 minute; I will recognize first of all the gentleman from 
California, Mr. Rohrabacher, who is the chairman of the Europe, 
Eurasia, and Emerging Threats Subcommittee.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    We have these hearings, and we are actually supposed to 
talk about the big picture, but they also are supposed to 
understand the details, and that is what these hearings are all 
about. The big picture has dramatically changed in this part of 
the world in the last 20 years. The big picture used to be that 
the United States was in a Cold War, and Pakistan was our ally 
and India was allied with our enemy, the Soviet Union. Now 
there is no more Soviet Union, and what you have is Pakistan, 
our former ally, now allied with perhaps the greatest threat 
that we face today, now that the Soviet Union has disappeared, 
and that is an expanding totalitarian China.
    Mr. Chairman, I don't find it at all a balancing act that 
we have to conduct. Pakistan is on the side of our enemy. India 
is now on our side. We should reestablish our priorities and 
make sure that India becomes our best friend the same way 
Pakistan was during the Cold War. That was a different era. I 
look forward to expanding on that thought and hearing from our 
witnesses and how that truism, which I think is a truism, or 
observation, will impact our policies in the rest of that 
region. Thank you very much.
    Mr. Chabot. Thank you very much.
    Now the gentleman from California, Mr. Sherman, is 
recognized for making an opening statement. He is the ranking 
member of the Terrorism, Nonproliferation, and Trade 
Subcommittee.
    Mr. Sherman. Assistant Secretary Biswal, welcome back to 
2172.
    This committee and this House passed a bill to provide for 
a special envoy on religious minorities in the Middle East and 
South Asia, expressing the will of the entire House that that 
be a real focus of the State Department. Now, the Senate hasn't 
exactly established that office, so, as is typical of Congress, 
we would like you to accomplish the goals without providing you 
with any additional money or staffing. But I think Congress has 
shown what you already know, and that is how important it is to 
focus on these religious minorities, and I hope that your 
bureau would focus on the Hindu minorities of Pakistan and 
Bangladesh.
    Ms. Rollins, thank you for your focus on the far region of 
Sindh and providing 250 million metric tons to deal with the 
drought. Thank you, and please do more.
    In addition, we have a chance to focus on Sri Lanka at the 
conclusion of a civil war there. There are some 90,000 war 
widows. And I hope that your program would focus on that, would 
focus on the hundreds of thousands of internally displaced 
persons, particularly from the north and the east. And this is 
a chance to be creative with programs target on intercommunal 
harmony and ethnic reconciliation.
    So I wish I could appropriate more funds so that you could 
do all these things, but knowing the skill of both of you, I am 
counting on you to get them done.
    Mr. Chabot. Thank you very much. Gentleman's time has 
expired.
    I will now introduce our distinguished panel here this 
afternoon. I will begin with Nisha Biswal, who was sworn in as 
Assistant Secretary of State for South and Central Asian 
Affairs last October. Previously, Ms. Biswal served as 
Assistant Administrator for Asia at USAID. During Ms. Biswal's 
tenure, USAID reopened its mission in Burma and transitioned 
its programs in various countries to global partnerships in 
development cooperation. Ms. Biswal also worked in the Office 
of U.S. Foreign Disaster Assistance and the Office of 
Transition Initiatives, and served as chief of staff in the 
Management Bureau while at USAID. Before USAID, Ms. Biswal 
served as the majority clerk for the House Appropriations 
Foreign Operations Subcommittee and as professional staff for 
the House Foreign Affairs Committee, where she was responsible 
for South Asia. Ms. Biswal has also worked at InterAction and 
at the American Red Cross, where she served as an international 
delegate in Armenia, Georgia, and Azerbaijan.
    We welcome you here this afternoon. You have spoken many 
times before this committee and you are always a welcomed 
guest.
    I will also introduce our second witness, Denise Rollins, 
who has been a member of the U.S. Senior Foreign Service and 
has more than 25 years of international experience. She has 
served as USAID's Acting Assistant Administrator for the Bureau 
for Asia since September of last year. Prior to that, Ms. 
Rollins was Senior Deputy Assistant Administrator, where she 
was responsible for overseeing USAID's Asia portfolio. Prior to 
her appointment to the Asia Bureau, she was USAID's Mission 
Director in Bangladesh. She has additionally served as USAID's 
Deputy Mission Director in South Africa, where she oversaw 
development programs addressing health, education, local 
government, and private sector development. Before joining 
USAID, Ms. Rollins served as the senior program officer at the 
Africa-American Institute and a legislative assistant for two 
Members of Congress. And she is a native of Detroit, Michigan.
    We welcome you both here. I am sure you are familiar with 
the rules. You will have 5 minutes. There is a lighting system 
and the yellow light will remind you that you have 1 minute to 
wrap up. We would ask you to stay within the 5 minutes, if at 
all possible. We will keep ourselves within the 5 minutes as 
well.
    Ms. Biswal, you are recognized for 5 minutes.

 STATEMENT OF THE HONORABLE NISHA BISWAL, ASSISTANT SECRETARY, 
 BUREAU OF SOUTH AND CENTRAL ASIAN AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Ms. Biswal. Thank you, Mr. Chairman. And I almost feel like 
I could dispense with an opening statement because both of you 
were so comprehensive in your own statements about the region, 
and there is very little difference or distinction in what I 
have to add. Nonetheless, I ask that my full statement be 
entered into the record, and I will summarize a few key points.
    Mr. Chabot. Without objection, so ordered.
    Ms. Biswal. Mr. Chairman, Ranking Member Bera, members of 
the subcommittee, thank you for inviting me to testify today. 
It is an honor for me always to appear before this committee, 
in particular, and a pleasure to be here alongside my good 
friend and colleague, Denise Rollins.
    Mr. Chairman, the President's Fiscal Year 2015 budget 
request for South Asia comes in at just shy of $350 million, 
not including the countries of Afghanistan and Pakistan, and it 
recognizes the important role that the United States continues 
to play in supporting democratic development and promoting 
economic opportunity in the region.
    This hearing is particularly timely given the historic 
transitions that are now underway in South Asia. You both have 
commented on the incredible display of democracy going on in 
India, with 800 million eligible voters. And India's democratic 
development, its rise as a confident and capable power that 
advances regional stability, security, and prosperity, is 
something that the United States welcomes and supports.
    And the U.S.-India relationship has continued to mature, 
deepen, and grow over successive administrations in both 
countries. We continue to facilitate growth in our trade 
relationship and ensure new opportunities for businesses in 
each other's markets. Our collaboration on energy, science and 
technology, environment, space, education, and counterterrorism 
continues to deepen. And our security cooperation, Mr. 
Chairman, with India is a central element of the broad U.S.-
India strategic partnership. We look forward to working closely 
with the next Indian Government to build on these efforts.
    In Bangladesh, the tragic collapse of the Rana Plaza 
factory 1 year ago has galvanized an international movement to 
strengthen worker safety and labor rights in Bangladesh. And 
while much remains to be done, the United States and other 
international partners have helped make significant progress in 
Bangladesh over the past year.
    Nepal has also made significant strides, building 
democratic institutions after years of conflict. Both 
Bangladesh and Nepal, due in large part to our assistance 
programs, are both on track to achieve their Millennium 
Development Goals related to child and maternal mortality and 
have both significantly improved food security for their 
people.
    In Sri Lanka, while we saw the end of a brutal conflict in 
2009, the country is still undergoing a fragile transition. And 
while we are disappointed that the government has failed over 
the past 4 years to take adequate and meaningful steps to 
support accountability and reconciliation, the United States is 
committed to working with the people and the Government of Sri 
Lanka to strengthen its democracy and to help the country move 
toward a more durable pace.
    Mr. Chairman, given the elections and transitions underway 
in this region, now is a time of enormous opportunity to help 
shape a more promising future for the people across South Asia. 
And under President Obama and Secretary Kerry's leadership, we 
are doubling down, so to speak, in Asia. Despite many 
challenges, including weak regional architecture, high poverty 
rates, and limited regional infrastructure, we can envision a 
future where Asian economies are connected through trade and 
transit, from Central Asia to South Asia to Southeast Asia and 
beyond.
    The administration has placed a strategic bet on regional 
economic connectivity through our New Silk Road and Indo-
Pacific Economic Corridor initiatives. We know that peace and 
stability are much more likely to be sustained when the 
countries of the region are tied together in trade and when 
their economies and their people are invested in each other.
    Earlier in this month, Afghans turned out in record numbers 
to vote, defying threats, intimidation, and violence. Their 
courage and determination to protect their democracy shows that 
they are committed to a better future for themselves and their 
children, a future where a more stable and secure and 
prosperous Afghanistan is connected to a stable, secure, and 
prosperous region.
    On the eastern front of South Asia, we see real opportunity 
to connect South and Southeast Asia in light of the historic 
transition undergoing in Burma. The improvement of relations 
between India and Bangladesh and the growing ties between India 
and its ASEAN counterparts allow for more efficient, 
integrated, and open markets across the region.
    But clearly one of the biggest obstacles to regional 
connectivity is India and Pakistan. Trade normalization between 
these two historic rivals could be a game changer. And we have 
been encouraged by positive signs from Islamabad and New Delhi 
that things may be moving in the right direction. We are 
hopeful that we will see strong leadership from both 
governments following India's election.
    Mr. Chairman, let me just conclude by saying that as I look 
out over the horizon and assess the challenges and 
opportunities for the United States in South Asia, I am struck 
by the enormous potential of a region that will be increasingly 
consequential to our interests in the years ahead. Much of the 
story of the 21st century will be written in this part of Asia, 
this part of the world where a little goes a long way and where 
our assistance have tremendous positive impact on the ground.
    Thank you, Mr. Chairman. And I would be happy to take 
questions.
    Mr. Chabot. Thank you very much.
    [The prepared statement of Ms. Biswal follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Ms. Rollins, you are recognized for 5 minutes.

 STATEMENT OF MS. DENISE ROLLINS, ACTING ASSISTANT SECRETARY, 
   BUREAU FOR ASIA, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Rollins. Thank you, Mr. Chairman, and distinguished 
members of the committee.
    Mr. Chabot. Could you turn the microphone on and pull it a 
little bit closer so everybody in the room can hear?
    Ms. Rollins. All righty.
    Mr. Chabot. Thank you.
    Ms. Rollins. Thank you, Mr. Chairman, and distinguished 
members of the subcommittee. I am delighted to be able to 
testify today on the role of the United States Agency for 
International Development in addressing U.S. foreign policy 
priorities and development assistance needs in South Asia.
    South Asia has enjoyed steady growth that has helped lift 
millions out of poverty while building important new markets 
for American exports. At the same time, it remains home to weak 
governance systems, persistent natural disasters, and two-
fifths of the world's extreme poor, presenting development 
challenges on a grand scale.
    USAID works across the region to ensure countries grow 
peacefully and sustainably and contribute to greater global 
stability. Our assistance promotes economic growth and 
democratic opportunity, invests in people and institutions, and 
strengthens physical and human security for all ethnic groups, 
women, and other marginalized populations.
    Our approach is threefold. First, we are advancing regional 
economic integration that accelerates the growth of tomorrow's 
trade partners while yielding greater stability across South 
and Central Asia and Afghanistan. Second, we are building 
pathways out of poverty through the three presidential 
initiatives: The Global Health Initiative, Feed the Future, and 
the Global Climate Change Initiative. And, finally, we are 
institutionalizing USAID's new development model in Asia, which 
leverages science, technology, innovation, and partnerships to 
maximize cost effectiveness and impact.
    Through these primary approaches, we have achieved 
impressive gains. Through programs addressing South Asia's 
mounting energy challenges, we celebrated a major step forward 
last December with the completion of a transmission line 
between India and Bangladesh that will facilitate electricity 
trade for the first time between these two countries.
    We assisted India in eradicating polio, a remarkable feat 
for a country that reported more the half the global polio 
cases up till 2009.
    And in cyclone-prone Bangladesh, where I served as USAID's 
mission director, we helped end rice deficiencies by partnering 
with regional scientists to develop saltwater-tolerant rice 
seeds that can survive prolonged flooding and by introducing 
technology that places fertilizer under the soil where it is 
less likely to be washed away.
    Through our FY 2015 budget, as my colleague has said, the 
request for 350 million, we will be supporting U.S. foreign 
policy priorities through development assistance to India, 
Bangladesh, Nepal, Sri Lanka, and the Maldives. Funding will 
help us seize an unprecedented opportunity across Asia to 
leverage new talent and resources from universities to emerging 
donors.
    Nowhere is that opportunity more evident than India, where 
we are transforming our development approach with an 
indispensable U.S. partner to harness the strength and 
capabilities of both countries, and particularly focused on 
tackling the development challenges of the day. We are 
partnering with India to share proven innovations and best 
practices with other developing countries across Asia and 
Africa. And we are deepening our engagement in India on shared 
regional and multilateral goals, including advancing the 
administration's vision of the New Silk Road.
    In Bangladesh, where we continue to focus on labor rights 
amid heightened international concern, we are strengthening 
democratic governance while carrying out a whole host of other 
programming to reduce rampant poverty, from Feed the Future to 
global health and environment programs.
    In Nepal, we are supporting a nascent democracy and 
implementing a new Community Resilience Program launched by 
Administrator Shah just 2 months ago. This program will 
comprehensively address the needs of the extreme poor, while 
increasing their ability to cope with drought, flooding, or 
natural disasters.
    In Sri Lanka, our assistance will continue to focus on 
reconciliation and civil liberties to ensure the United States 
remains engaged in a positive, visible way to protect and 
expand the space for those advocating for freedom of speech and 
human rights. Given the progressively difficult political space 
in which we are operating, we are deepening our engagement in 
Sri Lanka with civil society and increasing direct support to 
nongovernmental organizations to bolster local capacity, to 
sustain progress toward long-term peace and inclusive 
development.
    And finally, Mr. Chairman, in the Maldives, a country in 
political transition, our assistance will continue to mitigate 
the impacts of climate change on the economy and way of life, 
an absolute imperative given the country's highest point is 
only 8 feet above the rising sea level.
    Mr. Chairman, I would like to conclude by saying that 
stability and progress in South Asia is critical to our future. 
By continuing USAID support to this region to save lives, 
strengthen democracies, and expand opportunities, we are also 
advancing our own prosperity and security.
    I appreciate the opportunity to testify today and look 
forward to your counsel and questions.
    Mr. Chabot. Thank you very much.
    [The prepared statement of Ms. Rollins follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. We appreciate both of your testimonies this 
afternoon. Now we will take 5 minutes each to ask questions. I 
will recognize myself first.
    I will begin with you, Ms. Biswal, if I can. As I mentioned 
in my opening statement, I am concerned that 80 percent of the 
South Asia budget is earmarked for the Global Health 
Initiative, Feed the Future, and Global Climate Change 
programs--$276 million out of the $345 million.
    Can you explain how this impacts the flexibility in the 
budget to respond to crises or needed changes in priorities? 
South Asia, because of its geographic location and history, has 
a potential to become a breeding ground for terrorist activity. 
So how does the budget allow for room to address these issues?
    Ms. Biswal. Thank you, Mr. Chairman. I think that is a very 
important question.
    First of all, as we see, some of the critical challenges 
facing the region are challenges of poverty and human 
development. And therefore focus on food security, on health, 
and on sustainable development to help the region cope with the 
effects of climate change and mitigate and adapt to climate 
change I think are certainly very, very important priorities, 
especially because 1.6 billion people are inhabiting this 
region. So the needs of the population is an important aspect 
of stability and security in the region.
    We are, however, making sure that we have the room and the 
flexibility to be able to address issues of democracy and 
governance, issues of economic connectivity and trade, and also 
ensure that we are doing more and better on counterterrorism 
and on security cooperation.
    One of the things that we have sought to do over the years 
is try to reserve some level of assistance or some level of 
funding for regional programs where we can use those funds as 
targets of opportunity open up across the South and Central 
Asia region. And we will continue to look for some flexibility 
in regional funding to augment the bilateral program so that we 
can respond to new challenges and new opportunities in the 
region.
    Mr. Chabot. Thank you.
    Ms. Rollins, let me turn to you if I can. In your 
testimony, you discuss that USAID's priorities in Sri Lanka are 
to deepen engagement with civil society groups that protect 
human rights and promote democracy and good governance, which 
we certainly would agree with. At the same time, you 
acknowledge that the ability for USAID to carry out much of its 
programming in these areas is becoming increasingly difficult.
    In light of recent news that the Government of Sri Lanka 
will amend current laws regarding foreign funding to NGOs in 
order to more closely scrutinize what organizations receive, 
are you concerned that this could negatively impact which 
organizations we can fund and the effectiveness of our 
assistance to support the priorities that you listed?
    Ms. Rollins. Thank you very much, Mr. Chairman, for that 
question.
    We are very concerned about the closing space for civil 
society in Sri Lanka. We are working with a number of local 
partners to continue to fund these organizations. We are 
working not only in the north and the east--as you know, we 
have had a very robust humanitarian assistance program in the 
north and the east, those populations that were affected by the 
civil war--but we are actually now in the process of expanding 
to work more with youth organizations to really kind of double 
down on reconciliation. What we have discovered is that we have 
spent--that the north and the south are areas that really need 
our assistance, but we want to make sure that populations in 
the south and populations in the north have opportunities to 
really work on some of the challenging community issues and get 
to know each other better. So we are working on reconciliation. 
But we believe that we will be able to continue doing our work 
and funding those organizations.
    Mr. Chabot. Thank you. I have only a short period of time 
left, but I will go back to you, Ms. Biswal.
    I mentioned I had been in Bangladesh shortly before the 
elections and met with both Sheikh Hasina and Khaleda Zia. I 
have met with them previously, both here and over there. I know 
them somewhat. When you talk to them, obviously, their point of 
views are very different. They are very strong leaders. 
Unfortunately, they don't particularly care for each other's 
point of views. As far as the election goes, as I had mentioned 
in my opening statement, only 10 percent of the people turned 
out to vote.
    What is the administration doing, either in the background 
or out front, to encourage a resolution of this matter and a 
real election so that we don't get 10 percent, but a lot higher 
number and you have a legitimate government in place?
    Ms. Biswal. Mr. Chairman, first of all, let me just thank 
you for the very timely visit that you made to Bangladesh and 
the important contribution you made toward trying to reach some 
sort of political dialogue. Your ongoing engagement and the 
interest of the U.S. Congress has been an important factor.
    We have pressed the government on political inclusion 
because we believe that all of the gains that Bangladesh has 
made in its economy, in its development trajectory, that all of 
those gains are fragile and unsustainable in the long term if 
it does not have political stability, and political stability 
is not possible without some greater degree of political 
inclusion. So this I think is both a short-term and a long-term 
undertaking for us in our engagement with the Bangladeshi 
Government and with Bangladeshi people writ large and civil 
society organizations.
    In the short term, I don't think we have seen a tremendous 
amount of movement. But we continue to engage with our 
counterparts in the international community as well as with the 
United Nations on trying press for support to the Election 
Commission, support to political parties at the grassroots 
level, and processes that can help create a more inclusive 
environment. I can't say to you that we have made tremendous 
progress in the short term, but I think we are committed to 
staying engaged in the long term to try to move this forward.
    Mr. Chabot. Okay. Thank you. I would just encourage the 
administration, either behind the scenes or to the extent they 
are able to do everything possible to encourage a resolution of 
this because if it is not resolved, I am afraid the violence is 
going to escalate. They are an ally, a good ally, of the United 
States and one that has traditionally been looked upon as a 
model for a moderate Muslim country--it could become just the 
opposite. We don't want to see that happen.
    I now recognize the gentleman from California, the ranking 
member, Mr. Bera.
    Mr. Bera. Thank you, Chairman Chabot.
    Both of us in our opening statements and both of our 
witnesses mentioned historic transitions in a very rapid 
timeframe. We all reference India's historic elections and the 
real opportunity as these elections come to a close and a new 
leader emerges in India to reestablish very strong ties with a 
close ally.
    The importance of this is underscored with India's role in 
the interconnectivity of the region. Both of you in your 
opening testimony made reference not only to the importance of 
this interconnectivity, building regional trade relationships, 
looking for additional trade normalization between India and 
Pakistan, and then certainly, underlying that, looking at how 
to address the energy needs. Ms. Rollins referenced the energy 
connection between India and Bangladesh as well.
    Maybe we will start with Ms. Biswal. If you would like to 
expand on the possibilities of what is possible there as we go 
through this transition and that interconnectivity.
    Ms. Biswal. Thank you, Congressman. We think that there is 
a tremendous amount of potential and possibility for further 
deepening and expanding the U.S.-India relationship. The past 
decade and a half has seen just an exponential growth in the 
way that our two countries engage and the points of 
connectivity between our societies. That growth has been 
through successive administrations in the United States, 
Democratic and Republican. It has been through successive 
administrations and governments in India, BJP-led and Congress-
led.
    And we look forward to the outcome of this election and we 
look forward to engagement with the new government that will 
take this to new heights. We see opportunity in expanding 
defense cooperation. We see opportunity, as you noted and as 
the Vice President challenged us, in growing our trade 
relationship from the very substantial 100 billion two-way 
trade that we have currently to a 500 billion two-way trade 
over the next decade.
    We see opportunity in India's efforts to expand its Look 
East policy, its connectivity to ASEAN. We have a trilateral 
dialogue between the United States, India, and Japan that is 
focused on that connectivity. And we see opportunity in 
connecting India and South Asia to Central Asia. So the scope 
for expanding our government-to-government, our business-to-
business, our people-to-people ties is tremendous as we look at 
the years ahead.
    Mr. Bera. Great. And, again, I think to paraphrase that, a 
strong India and a strong ally in India helps stabilize the 
region and then also creates opportunities as it looks east and 
partners with its neighbor countries.
    Ms. Rollins, if you might want to expand on some of the 
role of USAID in helping that interconnectivity and that 
partnership.
    Ms. Rollins. Thank you very much, Mr. Congressman.
    Over the last 2 years we have at USAID really transformed 
our relationship with India, so that--and I believe you 
mentioned that in your opening statement--that we are no longer 
looking at this as donor/recipient, but as partners.
    And India is particularly interested in working in other 
areas of the world. And so we have partnered with them on 
really looking at how can we leverage their creative, 
innovative technologies and use those technologies for 
development programs in other parts of the world. So, for 
example, you mentioned the agricultural training that goes on 
in India and India's institutions. And they go back to their 
countries and actually begin to implement some of those 
programs so that they can increase agricultural production.
    Also, one of the activities that we are very excited about 
is called the Millennium Alliance, and that is where we have 
partnered with the Government of India as well as the 
Federation of Indian Chambers of Commerce and Industry to 
catalyze local solutions to development challenges.
    Mr. Bera. Great. Thank you.
    I see that I am almost out of time. So with that, I will 
actually yield back, Mr. Chairman.
    Mr. Chabot. Thank you. The gentleman yields back.
    The gentleman from California, Mr. Rohrabacher, is 
recognized 5 minutes.
    Mr. Rohrabacher. Thank you very much.
    I think it is fascinating to see that India and Pakistan 
started off pretty much the same back in the 1940s when there 
was the split, and that Pakistan now and India seem to be going 
in totally different directions. And I think that India people 
are projecting very positive things for India. I don't know if 
they are projecting it for Pakistan or not.
    And am I correct in assuming that if indeed this is the 
case, where India is outpacing Pakistan, although they are 
basically of the same similar racial background and similar 
type of people, but they have different relationships to 
religion, number one, which is part of their system in 
Pakistan, and you have more freedom of religion in India; 
education, which in India has really placed an important 
priority on education, and Pakistan seems to have been 
relegated in education to madrassas and radical Islamic 
information distribution centers; and also, finally, and 
correct me if I am wrong, has not India gone out of its way to 
make sure that half of its population is not so discriminated 
against that they can't make the contribution to their society, 
namely, women? Are these observations on my part, are they in 
the ballpark or am I just philosophizing about something that 
doesn't exist? I am asking both of you. That is fine.
    Ms. Biswal. Mr. Rohrabacher, the way that I would frame it 
is that increasingly what we are hearing from, whether it is 
Pakistan, whether it is Afghanistan, whether it is any of the 
countries in the region, is that they see that having trade, 
having connectivity with their neighbors is fundamentally in 
their interest, that you cannot have a viable economy in 
today's world without being able to have those relationships.
    Mr. Rohrabacher. I will have to admit, I didn't mention 
trade in any of those. Treatment of women, education, and that 
type of thing.
    Ms. Biswal. We certainly think that an inclusive society, 
an inclusive economy, a tolerant society, a tolerant and 
inclusive society is going to be a more stable and more 
prosperous one.
    Mr. Rohrabacher. Right. And I think that surely we should 
keep an eye on this to see exactly what the type of values and 
freedom mean to people's uplifting of their standard of living. 
Certainly, I think if you relegate half of your population to 
inferior roles or having to wear outfits that they can't even 
look through or something, that that is no way to build an 
economy. You are cutting yourself off from a huge amount of 
wealth production that way.
    One last thought about our Government's policy. This $40 
million that we are talking about to the Maldives and to that 
area of the world dealing with climate change, and you 
mentioned the Maldives and the rising water, how can we spend 
money that will prevent the ocean from rising? First of all, 
first question, is there any specific evidence? What do we have 
that says that the ocean level is rising and that this is due 
to a manmade global warming?
    Ms. Rollins. Thank you, Mr. Rohrabacher.
    So in the Maldives we are looking at $2 million in 2015----
    Mr. Rohrabacher. Two million. What are we doing with $2 
million. Even if it is $2 million, I mean, if you are talking 
about the oceans going up, some of us have trouble thinking 
that this is caused by humankind. But one way or the other, 
what do you do with $2 million that is going to deter the ocean 
from rising?
    Ms. Rollins. We have two primary environmental projects: 
One is working to save the coral reefs, the other one is 
focused on water management for one of the islands. The 
Maldives is comprised of 1,100 islands. So we are working on 
two that are the most vulnerable.
    Mr. Rohrabacher. Okay. And you say that the reefs, saving 
the reefs and these things will trace back to the idea of 
global warming. But then again of course we can agree to 
compromise and say that there are environmental challenges that 
include the reefs and these things that may not have anything 
do with the internal combustion engine and the production of 
CO2. So I accept that. Thank you very much.
    Ms. Rollins. Thank you.
    Mr. Chabot. Gentleman's time has expired.
    The gentlelady from Hawaii, Ms. Gabbard, is recognized for 
5 minutes.
    Ms. Gabbard. Thank you. Thank you very much, Mr. Chairman.
    Thank you both for joining us today here.
    I am wondering if you can speak briefly, I have two 
questions, the first one on the growing and strengthening 
China-Pakistan relationship, with recent investments from 
China, multibillion-dollar investments really being welcomed by 
Pakistan. I am curious about how this impacts the dynamic both 
with India and overall within the region, either directly or 
indirectly impacting the New Silk Road economic initiative.
    Ms. Biswal. Thank you, Congresswoman. What I would note is 
that we don't believe in a closed or exclusive trade 
architecture. We believe that infrastructure connectivity, 
trade connectivity, needs to go in all directions, north, 
south, east, and west, and that connectivity in trade to China 
is important for the region, just as connectivity between 
Central Asia and South Asia or between South Asia and Southeast 
Asia. It needs to go in all directions. When you start having 
more exclusive arrangement, that is when we think it, one, 
closes off opportunity; two, creates unstable dependencies; 
and, three, fundamentally doesn't serve the interests of the 
people of the region.
    And so what we have been very careful to note to our 
counterparts, whether it be China or Russia or anyone else, is 
that we want to support economic ties that go in all 
directions, that create open, rules-based trade systems. And, 
therefore, our efforts in the region are in augmenting and 
supplementing some of the historic ties that have already been 
put in place that go in one direction. We are trying to make 
those expand in multiple directions. And so we are trying to 
take the connectivity that may exist, for example, between 
Pakistan and China and try to also expand that to include 
Central Asia and South Asia.
    Ms. Gabbard. What do you think is the critical component to 
getting India and Pakistan to overcome their differences as you 
move forward with these new initiatives?
    Ms. Biswal. You know, I think that the population in both 
countries overwhelmingly support improved relations and 
certainly increased economic activity. I think that there is 
increasing recognition in both countries that for both 
economies to grow, for both countries to achieve their goals 
and aspirations, that they need to be able to trade with each 
other. And we are hopeful that that recognition will result in 
some concrete actions in the coming weeks and months as the 
election in India concludes and a new government comes into 
place.
    Ms. Gabbard. And lastly, we have coming up later this year 
in primarily May and June the RIMPAC exercises. And as you 
know, this will be the first year that both India and China 
will be participating. It is the largest international 
exercise, it will be the 24th one that has occurred.
    And I am wondering if you can talk maybe a little bit more 
generally about our military-to-military engagements, both with 
India, but also across South Asia, and how this is developing--
I don't really like the word ``rebalance'' or ``pivot''--but as 
we look toward investing further within the Asia-Pacific 
region.
    Ms. Biswal. Well, I would respond by first noting that we 
do more exercises between the United States and India than 
virtually any other country. The relationship, the defense 
cooperation, the security cooperation between the United States 
and India has grown exponentially over the past decade, and it 
has grown because we see that a more capable Indian security 
presence is a force for stability across the region. And so we 
want to support that and invest in that capability.
    We also see that doing joint exercises across the Asian 
space again enhances stability and security for all of the 
countries of that region and is therefore fundamentally in our 
own interest. And so we have seen a stepping up of those 
exercises with multiple players and multiple parties. We noted 
that India invited Japan to participate in the Malabar 
exercises, and we hope that those are again trend lines that 
will continue to grow and expand in the coming years.
    We are also seeing Bangladesh taking on a greater role, 
particularly in peacekeeping. And we see that again that there 
is great scope for engaging with and supporting Bangladesh's 
role over the coming years. We have made it very clear, though, 
with all of the countries in the region that part and parcel of 
our ability to engage and expand our cooperation on defense and 
security issues that respect for human rights and the rule of 
law and ensuring that the military plays a very clear role in 
its bounds and its operations within the country, that those 
are very, very important to us in terms of how we engage with 
that military.
    Ms. Gabbard. Thank you very much.
    Mr. Chabot. Thank you. The gentlelady yields back.
    We will now go into a second round if any other members are 
interested in asking questions. It may not be a full 5 minutes 
but I will begin with myself.
    Let me turn to Nepal for just a moment. Ms. Biswal, in your 
testimony you mentioned that the State Department continues to 
regularly engage with the Nepali Government on the 
``gentleman's agreement'' which allows recently arrived Tibetan 
refugees to transmit through Nepal to India under the 
protection of UNHCR. Earlier this month, a human rights report 
documented the repression faced by Tibetans who cross into 
Nepal, raising concerns that Nepal in some cases is forcibly 
returning Tibetans to China. While I understand the gentleman's 
agreement is more of a provisional arrangement, this is 
concerning.
    Can you provide us with more details about your engagement 
with Nepal on this issue, the challenges you have encountered 
and whether you are seeing a situation in which China's 
influence there is superseding any agreements we have with 
Nepal on this important issue?
    I had an opportunity a couple years back to visit Nepal. 
While in Kathmandu, we went to one of the reception centers 
where we saw and met with several hundred people who had fled 
from Tibet and were on their way to India. Mainly India, but a 
few to other places. So, it is important when you have actually 
seen the faces, and many of them are very young people. If you 
could respond I would appreciate it.
    Ms. Biswal. Mr. Chairman, let me first note that Nepal has 
been a long and generous host to Tibetan refugees. For more 
than 50 years they have hosted refugees and have committed to 
protect those refugees, both the longstanding community as well 
as the new arrivals that are transiting to India.
    We have noted the growing pressure within Nepal, and we are 
engaged with the government on that. And if you don't mind, 
what I would like to do is take for the record and bring back 
to you a more fulsome response on some of the engagements that 
our Ambassador has undertaken, as well as our Bureau for 
Population, Refugees, and Migration, which have both been 
working very closely in addressing those issues.
    Mr. Chabot. I would greatly appreciate that. I assume it is 
not the same Ambassador now as was there a couple of years ago?
    Ms. Biswal. It is Ambassador Peter Bodde, who arrived in 
Nepal just about 1\1/2\ years, 2 years ago. The previous 
Ambassador was Scott DeLisi.
    Mr. Chabot. Right. Yeah, we were very impressed with him 
but you can continue. I didn't mean to interrupt you there.
    Ms. Biswal. No, no, not at all. I think that this has been 
a very high priority for the United States and our engagement 
in Nepal. We have worked with closely with the government to 
ensure that the rights of the Tibetan refugees are respected 
and that their ability to transit is also facilitated.
    Mr. Chabot. Okay. Thank you. Let me turn back to India for 
a moment. The administration says that transitioning its 
assistance relationship with India from a donor/recipient to an 
peer-to-peer partnership is one of its greatest achievements 
and now serves as a model for other developing countries. Could 
you be specific and let us know what you mean by that?
    Ms. Biswal. Sure. Why don't I make a couple of comments and 
then turn to my colleague from USAID.
    Mr. Chabot. That is fine.
    Ms. Biswal. You know, I started that transition when I was 
at USAID a few years ago, and it is fundamentally a recognition 
that while India continues to have many development challenges, 
it is also the source of tremendous development innovation. And 
so as we seek to work with and partner with India, it is on the 
basis that we have as much to learn as we have to provide and 
that in partnering with India in how it addresses development 
challenges, that we can also provide cost-effective solutions 
at scale in other parts of the world.
    And so we are going from a donor/recipient to much more of 
a peer-to-peer relationship where the Indians are putting in 
resources, both financial resources and in terms of human 
capital and knowledge in how we are addressing, whether it is 
food security, whether it is health, how we are addressing 
development challenges through innovation and through public-
private partnerships.
    Mr. Chabot. Okay. Thank you.
    Ms. Rollins, did you want to add a few things?
    Ms. Rollins. Sure. I would be happy to, sir.
    Mr. Chabot. Thank you.
    Ms. Rollins. When we talk about this new dynamic there in 
India, we are looking at how do we engage not only the Indian 
Government, but the Indian private sector, charitable 
organizations, high net worth individuals, universities, et 
cetera, in addressing development challenges.
    So a little earlier I had mentioned about the Millennium 
Alliance, which is an example of that, where they matched us 
50-50 in developing this new program that actually goes out and 
it seeks new and innovative proposals to address, it could be 
on TB, how to deal with multidrug-resistant TB; how do you work 
in communities to encourage more women to have health-seeking 
behaviors; looking at ways in which we can use clean energy 
more effectively.
    And in this particular program, the Millennium Alliance, 
actually they received 1,400 proposals that they reviewed, got 
down to about 300, and then eventually provided grants to about 
20 different organizations, looking at specific science, 
technology, innovations that could be at some point scaled up 
and then of course transferred to other countries.
    So I believe when we talk about this new arrangement in 
India, the transformation, we are really talking about 
expanding our partnerships. And it is not just government to 
government, but it is working with a much broader community in 
the country to address development challenges.
    Mr. Chabot. Thank you very much.
    I will conclude now. I gave an additional 5 minutes and I 
could go for a long time but I am going to hold myself to that 
5 minutes, even though we don't have any other members here, at 
least up on the panel here to hold me to it. I will do it 
myself.
    In the last Congress, I chaired the Middle East 
Subcommittee, and at that time, South Asia was part of the 
Middle East Subcommittee. Then things shifted around a bit and 
now I have Asia and the Pacific, which includes South Asia. In 
the administration's rebalance, or pivot--there are various 
terms that are thrown around--but the emphasis on Asia and how 
important it is, unfortunately, I think sometimes South Asia 
and other very important countries don't get the focus that 
they should, that they deserve, they need. And that is not only 
in their interest, but it is in the U.S.' interest to make sure 
that the refocusing and rebalancing is going to South Asia as 
well. This hearing this afternoon was part of that.
    I want to thank both members of the panel here for giving 
us excellent testimony and participating. We certainly 
appreciate it.
    All members will have 5 days to revise their statements or 
submit additional questions. If there is no further business to 
come before the committee, we are adjourned. Thank you.
    [Whereupon, at 3:02 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
                     <Hoarfrost><F-dash><Register>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
  <Copyright><star>ab<pound>t<o-times><diamond><careof>swa<script-l>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
